                              Office of the Inspector General


James M. Fornataro
Associate Commissioner
 for Acquisition and Grants

Assistant Inspector General
 for Audit

Costs Claimed by the State of Illinois on the Social Security Administration’s Contract
Number 600-94-13524


The attached final report presents the results of our audit of the costs claimed by the
State of Illinois on the Social Security Administration’s Contract Number (CN)
600-94-13524 (A-13-97-51024). The objective of our audit was to determine if costs
claimed by the State of Illinois for CN 600-94-13524 were allowable, allocable, and
reasonable in accordance with applicable Federal regulations and the terms of the
contract. This report also provides the Contracting Officer with cost information to
determine final value of the contract and to use in closing out the contract.

You may wish to comment on any further action taken or contemplated on our
recommendations. If you choose to offer comments, please provide your comments
within the next 60 days. If you wish to discuss the final report, please call me at
(410) 965-9700.




                                             Pamela J. Gardiner

Attachment

cc:

Yvette S. Jackson

Deputy Commissioner for Finance,

 Assessment and Management
Mr. Jim Donkin

Chief of Internal Audit

Illinois Department of Human Services

110 West Lawrence Street

Springfield, Illinois 62704


Dear Mr. Donkin:


The enclosed final report presents the results of our audit of the costs claimed by the

State of Illinois on the Social Security Administration’s Contract Number (CN)

600-94-13524 (A-13-97-51024). The objective of our audit was to determine if costs

claimed by the State of Illinois for CN 600-94-13524 were allowable, allocable, and

reasonable in accordance with applicable Federal regulations and the terms of the

contract.


You may wish to comment on any further action taken or contemplated on our

recommendations. If you choose to offer comments, please provide your comments

within the next 60 days. If you wish to discuss the final report, please call me at

(410) 965-9700.

                                                Sincerely,




                                                Pamela J. Gardiner
                                                Assistant Inspector General
                                                 for Audit

Enclosure

cc:

Yvette S. Jackson

Deputy Commissioner for Finance,

 Assessment and Management
Kathleen Fletcher
Senior Public Service Administrator
          OFFICE OF

   THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION




  COSTS CLAIMED BY THE STATE
    OF ILLINOIS ON THE SOCIAL
   SECURITY ADMINISTRATION’S
 CONTRACT NUMBER 600-94-13524


  September 1998   A-13-97-51024




AUDIT REPORT

                      E X E C U TI V E S U M M AR Y 


OBJECTIVE

The objective of this audit was to determine if costs claimed by the State of Illinois for
Contract Number (CN) 600-94-13524 were allowable, allocable, and reasonable in
accordance with Federal regulations and the terms of the contract. This report also
provides the Contracting Officer (CO) with cost information to determine the final value
of the contract and use in closing out the contract.

BACKGROUND

The Social Security Administration’s (SSA) Office of Acquisition and Grants (OAG)
requested an audit of costs incurred by the State of Illinois (CN 600-94-13524) for
Referral and Monitoring Agency (RMA) services to refer, assess, and monitor drug
                                                                                      1
addicts and alcoholics (DA&A) receiving Supplemental Security Income (SSI) benefits.
The contracted service period was from July 1, 1994, through September 28, 1995.
The costs claimed under CN 600-94-13524 are defined in terms of the contract and the
Office of Management and Budget (OMB) Circulars A-87 and A-122. The circulars
provide criteria to establish allowability, allocability, and reasonableness of costs
claimed by State and nonprofit entities for Federal cost reimbursement contracts. 2

We limited our audit to the review of costs incurred by the State of Illinois and its
subcontractor for CN 600-94-13524. We did not assess, and do not express an
opinion of the overall acceptability of the State of Illinois or its subcontractor’s internal
controls or accounting systems. We performed our audit work at the State of Illinois
Department of Alcohol and Substance Abuse and its subcontractor, Treatment
Alternatives for Special Clients (TASC), both located in Chicago, Illinois. We also
performed work at OAG at SSA Headquarters in Baltimore, Maryland. The field work
was conducted from September 1997 through November 1997.




������������������������������������

1
 SSI provides income maintenance payments to low-income individuals who are aged, blind, or

disabled. DA&As were determined disabled if they met income and other eligibility requirements, but this

category was eliminated in March 1996 by P.L.104-121. However, prior to the elimination of the DA&A

category, each State had an RMA contractor who referred, assessed, and monitored both title II and title

XVI DA&A recipients.

2
 OMB Circular A-87, “Cost Principles for State, Local and Indian Tribal Governments;”
OMB Circular A-122, “Cost Principles for Nonprofit Organizations.”


                                                   i
RESULTS OF REVIEW

The State of Illinois claimed a total of $1,376,799 for its contract (CN 600-94-13524).
Except for $123,142 in questioned costs related to labor, fringe benefits, and the
subcontractor’s office space and indirect costs, we determined the claimed costs were
allowable, allocable, and reasonable in accordance with applicable Federal regulations
and the terms of the contract.

•	 COSTS RELATED TO LABOR AND RELATED FRINGE BENEFITS ARE
   QUESTIONED

•	 SUBCONTRACTOR COSTS RELATED TO OFFICE SPACE AND INDIRECT
   COSTS ARE ALSO QUESTIONED

Subcontractor Inappropriately Claimed Office Space Costs

Subcontractor Used Indirect Rates That Differed from Incurred Rates

RECOMMENDATION

We recommend that SSA recover the questioned costs of $123,142 from the State of
Illinois on CN 600-94-13524.

SSA COMMENTS

SSA agreed with the intent of the recommendation. However, the Agency did not
provide comments and will consider the recommendation at the time of negotiation and
administrative close-out of the contract. (See Appendix C for the full text of the
Agency’s comments.)

STATE OF ILLINOIS AND SUBCONTRACTOR COMMENTS

The State of Illinois and TASC did not concur with our questioning certain costs. In its
response, the State of Illinois did not concur with our questioning of the direct labor and
related fringe benefits costs for the project coordinator labor category. While not
commenting on the questioned subcontractor indirect and office parking costs, the
State of Illinois did not concur with our questioning of TASC’s claimed office space
interest costs. In addition, TASC did not concur with our questioning of office space
costs and most of the questioned indirect costs. (See Appendix D for the full text of the
State of Illinois and TASC comments.)




                                             ii
OIG RESPONSE

We considered the comments provided by the State of Illinois and subcontractor. As a
result of the additional support provided by the State of Illinois, we adjusted the amount
of questioned direct labor and related fringe benefits costs. The adjusted costs are
reflected in our recommendation. However, we do not agree with and have not made
adjustments for all other nonconcurrences made by the State of Illinois and
subcontractor. All of the remaining nonconcurrences pertain to costs not compliant
with applicable Federal regulations or the terms of the contract; or in excess of costs
actually incurred. (See the explanatory notes in Appendix B for detailed OIG
responses to State of Illinois and subcontractor comments.)




                                            iii
                         TAB L E O F C O N TE N TS


                                                                                                                         Page

EXECUTIVE SUMMARY ......................................................................................... i

INTRODUCTION .................................................................................................... 1

RESULTS OF REVIEW .......................................................................................... 3

    COSTS RELATED TO LABOR AND RELATED FRINGE BENEFITS
    ARE QUESTIONED........................................................................................... 3

    SUBCONTRACTOR COSTS RELATED TO OFFICE SPACE AND
    INDIRECT COSTS ARE ALSO QUESTIONED................................................. 4

    �    Subcontractor Inappropriately Claimed Office Space Costs ........................ 4

    �	   Subcontractor Used Indirect Rates that Differed from Incurred
         Rates............................................................................................................ 4

RECOMMENDATION ............................................................................................. 6

APPENDICES

APPENDIX A - Criteria for Claimed Costs

APPENDIX B - Schedules and Explanatory Notes for Claimed and Recommended
             Costs on Contract Number 600-94-13524

APPENDIX C - SSA Comments

APPENDIX D - State of Illinois and Subcontractor Comments

APPENDIX E - Major Contributors to This Report

APPENDIX F - SSA Organizational Chart
                           I N TR O D U C TI O N


OBJECTIVE

The objective of this audit was to determine if costs claimed by the State of Illinois for
CN 600-94-13524 were allowable, allocable, and reasonable in accordance with
Federal regulations and the terms of the contract. This report also provides the CO
with cost information to determine the final value of the contract and use in closing out
the contract.

BACKGROUND

SSA’s OAG requested an audit of costs incurred by the State of Illinois under its
contract (CN 600-94-13524) for RMA services to refer, assess, and monitor DA&A
receiving SSI benefits. The contracted service period was from July 1, 1994, through
September 28, 1995.

The costs claimed under CN 600-94-13524 are defined in terms of the contract.
Additionally, OMB Circulars A-87 and A-122 provide criteria that establish allowability,
allocability, and reasonableness of costs claimed by State and nonprofit entities for
Federal cost reimbursement contracts. Criteria examples include payroll and
distribution; allocable cost; support of salaries and wages; compensation for personal
services; interest, fund raising, and investment management costs; and travel costs.
(See Appendix A for a detailed explanation of the circulars’ criteria.)

SCOPE AND METHODOLOGY

We limited our audit to the review of costs incurred by the State of Illinois and its
subcontractor for CN 600-94-13524. We did not assess, and do not express an
opinion of the overall acceptability of the State of Illinois or its subcontractor’s internal
controls or accounting systems. Therefore, we assessed control risk as “high” and
expanded our substantive tests, which our audit reflects and which provides a
reasonable basis for our conclusions.

We did review, on a limited basis, the contractor’s and subcontractor’s internal controls.
In doing so, we assessed control risk and determined the extent of substantive testing.
We also examined, on a test basis, evidence supporting the amounts claimed;
inspected disclosures in the data; reviewed records; assessed the accounting
principles used and significant estimates made by the contractor; and evaluated the
overall data and records presentation.



                                              1

To evaluate claimed costs, we used OMB Circulars A-87 and A-122, plus the terms and
conditions of the contract. Costs that did not meet the requirements of these circulars
and the contract were questioned for SSA’s use in determining the final value of the
contract and closing it out.

Work was performed at the State of Illinois Department of Alcohol and Substance
Abuse and its subcontractor, TASC, both located in Chicago, Illinois. We also
performed work at OAG at SSA Headquarters in Baltimore, Maryland. The field work
was conducted from September 1997 through November 1997. Our audit was
conducted in accordance with generally accepted government auditing standards.




                                           2

                        R E S U L TS O F R E V I E W 


Except for the questioned costs discussed below, we determined the costs claimed by
the State of Illinois on CN 600-94-13524 are allowable, allocable, and reasonable in
accordance with applicable Federal regulations and the terms of the contract.

We question whether $123,142 of the costs were allowable, allocable, and reasonable
(See Table 1 which summarizes the questioned cost items).


                      Table 1 - Schedule of Questioned Costs
                          Questioned Cost Item       Questioned Costs

                       State of Illinois Costs:
                                          Labor Costs                    $ 37,236
                                       Fringe Benefits                      9,033
                        Total State of Illinois Costs                    $ 46,269

                       Subcontractor Costs:
                                      Office Space                       $ 25,246
                                     Indirect Costs                        51,627
                         Total Subcontractor Costs                       $ 76,873


COSTS RELATED TO LABOR AND RELATED FRINGE BENFITS ARE
QUESTIONED

We question $37,236 of the claimed labor costs because of insufficient documentation
of employee time per section B-10(b) of OMB Circular A-87. Likewise, the fringe
benefits associated with the unsubstantiated labor costs ($9,033) are also questioned.
Rather than questioning the full amount of labor costs as unsupported, we determined
a reasonable amount of direct labor costs by relying on the best available
documentation of employee time which was a second RMA contract, CN 600-95-
22673.3

We analyzed time charges on the subsequent RMA contract to determine a reasonable
number of employee hours that were allocable to CN 600-94-13524. We then applied
the actual labor rate to our recommended number of labor hours to determine the
������������������������������������

3
 On the second RMA contract, awarded in 1995, the State of Illinois began partially documenting

SSA-related time charges and expanded the RMA services provided in CN 600-94-13524.




                                                  3

recommended labor costs. The difference between the claimed labor costs and the
recommended labor costs is the amount we question. Likewise, we applied the State of
Illinois fringe benefit rate of 24.26 percent to determine the related questioned fringe
benefit costs.

SUBCONTRACTOR COSTS RELATED TO OFFICE SPACE AND
INDIRECT COSTS ARE ALSO QUESTIONED

We are also questioning $76,873 of the subcontractor’s claimed costs because the
costs are not in accordance with the terms of the contract and/or applicable Federal
regulations. Details of the questioned subcontractor costs are discussed below.

Subcontractor Inappropriately Claimed Office Space Costs

The subcontractor inappropriately charged SSA $25,246 in office space costs. TASC
claimed $23,219 in unallowable interest costs that are specifically excluded as an
allowable charge under Attachment B item 19 of OMB Circular A-122. TASC also
claimed $2,027 in daily commuting parking costs as office space. The parking costs
are not allowable and reasonable for the following reasons.

First, parking costs are not provided for in the terms of the lease agreement which is
the basis for office space costs. Second, the parking costs are related to the
employees’ daily commuting costs to their “home-office.” If the subcontractor agreed to
reimburse employees for home-office parking expenses, these items should have been
considered as employee compensation and reported on the employees’ wage
statements. TASC did not consider these costs employee compensation and did not
include these costs on the employees’ wage statements. Finally, the parking costs
were not incurred as a part of business-related travel while the employees were in
travel status.

We question whether these costs are allowable because the costs do not meet the
criteria of compensation as described in OMB Circular A-122, Attachment B item 6, or
the criteria for travel as described in OMB Circular A-122, Attachment B item 50.

Subcontractor Used Indirect Rates that Differed from Incurred Rates

We question $51,627 in indirect costs because our audit tests identified different

indirect rates than those used by the subcontractor. The subcontractor claimed indirect

rates of 18.95 percent and 23.73 percent for Fiscal Year (FY) 1995 and

FY 1996, respectively. These rates differed from the actual indirect rates incurred

by the subcontractor. TASC finalized an indirect rate of 15.30 percent for

FY 1995 with the Department of Health and Human Services, and finalized an indirect

rate of 15.90 percent for FY 1996 with the Department of Justice. As a result, we

applied TASC’s incurred indirect rates to the applicable FY 1995 and FY 1996 cost




                                           4

allocation base to determine the recommended indirect costs. A summary of the
claimed, recommended, and questioned indirect costs are presented in Tables 2-4. 4

        Table 2 - Schedule of Claimed Indirect Costs by TASC on
        CN 600-94-13524
                               Claimed         Claimed         Claimed
          Fiscal Period         Direct         Indirect        Indirect
                                Costs            Rates          Costs
                                  (A)             (B)           (A*B)
        1995                $ 847,985           18.95%       $160,716
        1996                   213,844          23.73%         50,755
        Total               $1,061,829                       $211,471

        Table 3 - Schedule of Recommended Indirect Costs for TASC on
        CN 600-94-13524
                           Recommended
 Recommended Recommended

           Fiscal Period         Direct
     Indirect          Indirect

                                 Costs
       Rates             Costs

                                  (C)
          (D)             (C*D)

         1995               $ 	 828,566      15.30%          $126,770
         1996                   208,017      15.90%             33,074
         Total              $1,036,583                       $159,844

        Table 4 - Schedule of Questioned Indirect Costs for TASC on
        CN 600-94-13524
                               Claimed      Recommended
 Questioned

           Fiscal Period       Indirect         Indirect
       Indirect

                                Costs            Costs
          Costs

                                 (A*B)           (C*D)
       (A*B) - (C*D)

         1995                  $160,716        $126,770         $33,946
         1996                     50,755          33,074          17,681
         Total                 $211,471        $159,844         $51,627

To assist the CO in determining the final value and contract close out of the above
contract, we have included detailed analyses of the auditors’ evaluation methodology in
determining recommended contract costs in Appendix B.




������������������������������������

4
 The amounts in Tables 2 through 4 are rounded to the dollar. Percentages are rounded to the second

decimal place. Any differences are due to rounding.




                                                 5

                     R E C O M M E N D ATI O N 


RECOMMENDATION

We recommend SSA recover the questioned costs of $123,142 from the State of Illinois
on CN 600-94-13524.

SSA COMMENTS

SSA agreed with the intent of our recommendation. However, the Agency did not
provide comments and will consider the recommendation at the time of negotiation and
administrative close-out of the contract. (See Appendix C for the full text of the
Agency’s comments.)

STATE OF ILLINOIS AND SUBCONTRACTOR COMMENTS

The State of Illinois and TASC did not concur with our questioning certain costs. In its
response, the State of Illinois did not concur with our questioning of the direct labor and
related fringe benefits costs for the project coordinator labor category. While not
commenting on the questioned subcontractor indirect and office parking costs, the
State of Illinois did not concur with our questioning of TASC’s claimed office space
interest costs. In addition, TASC did not concur with our questioning of office space
costs and most of the questioned indirect costs. (See Appendix D for the full text of the
State of Illinois and TASC comments.)

OIG RESPONSE

We considered the comments provided by the State of Illinois and subcontractor. As a
result of additional support provided by the State of Illinois, we accept the direct labor
and related fringe benefits costs for the project coordinator labor category. The cost
adjustments are reflected in our recommendation. However, we do not agree with and
have not made adjustments for all other nonconcurrences made by the State of Illinois
and subcontractor. All of the remaining nonconcurrences pertain to costs not compliant
with applicable Federal regulations or terms of the contract; or in excess of costs
actually incurred. (See the explanatory notes in Appendix B for OIG responses to
State of Illinois and subcontractor comments.)




                                            6

APPENDICES

                                                                                APPENDIX A



     C R I TE R I A F O R C L AI M E D C O S TS


The Office of Management and Budget (OMB) Circular A-87, “Cost Principles for State,
Local and Indian Tribal Governments,” dated January 28, 1981:

   •	 Section B-10(b) Payroll and distribution
      Payroll must be supported by time and attendance records or equivalent
      records. Employees chargeable to more than one cost objective will be
      supported by appropriate time distribution records. The method used should
      produce an equitable distribution of time and effort.

OMB Circular A-87, “Cost Principles for State, Local and Indian Tribal Governments,”
dated May 4, 1995:

   •	 Section C-3 Allocable cost
      Cost is allocable to a particular cost objective if the goods or services involved
      are chargeable or assignable to such cost objective in accordance with relative
      benefits received.

   •	 Attachment B item 11(h) Support of salaries and wages
      Charges to Federal awards whether direct or indirect must be supported by
      personnel activity reports or equivalent documentation. They must reflect an
      after-the-fact distribution of the actual activity, must account for total activities for
      which the employee is compensated, and must coincide with one or more pay
      periods.

OMB Circular A-122 “Cost Principles for Nonprofit Organizations,” dated
June 27, 1980:

   •	 Section A-2 Allowability
      For costs to be allowable they must be reasonable for the performance of the
      award, conform to any limitations set forth in the award, and be in accordance
      with generally accepted accounting principles.

   •	 Section A-3 Reasonable
      In order to be reasonable the costs shall be recognized as ordinary and
      necessary for the performance of the award.




                                             A-1

                                                                        APPENDIX A


•	 Section A-4 Allocable
   Costs are allocable if incurred specifically for the award and are treated
   consistently with other costs incurred for the same purpose in like
   circumstances.

•	 Attachment B item 6 Compensation for personal services
   Include all compensation paid or accrued for employee services rendered during
   the period of award.

•	 Attachment B item 19 Interest, fund raising and investment management
   costs
   Interest on borrowed capital is unallowable.

•	 Attachment B item 50 Travel costs
   Include the expenses for transportation, lodging, subsistence, and related items
   incurred by employees that are in travel status on official business of the
   organization.




                                        A-2

                                                                                    APPENDIX B



         Schedules and Explanatory Notes for

         Claimed and Recommended Costs on

            Contract Number 600-94-13524


We question $123,142 of the costs claimed by the State of Illinois and its subcontractor
Treatment Alternatives for Special Clients (TASC) on Contract Number (CN)
600-94-13524. This appendix provides the following details:

      •	 Tables 1 through 51 depicting claimed, recommended, and questioned costs by
         the State of Illinois and its subcontractor TASC; and

      •	 Explanatory notes detailing the auditor’s conclusions; contractor’s basis for
         claimed costs; auditor’s evaluation methodology used to determine the
         questioned and/or recommended costs; State of Illinois, subcontractor, and OIG
         comments and responses.

In Tables 6 and 71 of this appendix, we provide our results by the subcontractor’s fiscal
year (FY) because our recommended indirect rates for FYs 1995 and 1996 are different
than those claimed by TASC.

Table 1 - Claimed Costs by the State of Illinois on CN 600-94-13524
                                                                                     Ref. Or
    Cost Element             Claimed      Recommended           Questioned            Note
                               (A)           (A) - (B)              (B)
Direct Labor
    $           81,504       $ 44,268              $ 37,236          Note 1
Fringe Benefits
             19,774         10,741                 9,033          Note 2
Travel
                       2,092           2,092                     0
Subcontractor

TASC
              1,273,361               1,196,488               76,873         Table 2
Other Costs
              68                      68                    0

Total Costs            $1,376,799         $1,253,657            $123,142




������������������������������������

1
 The amounts in Tables 1 through 7 have been rounded to the dollar. Percentages are rounded to the
second decimal place. Any differences are due to rounding.


                                                B-1

                                                                            APPENDIX B

Table 2 - Claimed Costs by Subcontractor TASC on CN 600-94-13524

  Cost Element             Claimed         Recommended         Questioned        Note
                             (A)              (A)-(B)             (B)

Direct Labor           $   648,400        $     648,400       $        0
Fringe Benefits            148,691              148,691                0
Temp Services               16,895               16,895                0
Travel                      32,429               32,429                0
Telephone                   23,979               23,979                0
Office Supplies             28,294               28,294                0
Office Space               104,485               79,239           25,246       Note 3
Equipment                    5,896                5,896                0
Maintenance
Equipment                    29,149                  29,149           0
Other Costs                  23,611                  23,611           0
Subtotal:
Direct Costs           $ 1,061,829        $ 1,036,583         $ 	25,246
Indirect Costs             211,471            159,844            51,627        Note 4

Subtotal Costs         $ 1,273,300        $ 1,196,427         $ 76,873
Immaterial
Difference                       61                     61            0

Total Costs
Claimed For
TASC by the
State of               $1,273,361         $1,196,488          $ 76,873
Illinois

Explanatory Notes:

1. 	State of Illinois - Direct Labor

   ���   Summary of Conclusions:

         We question $37,236 of direct labor costs because the State of Illinois did not
         keep adequate documentation to support the direct labor costs claimed. These
         costs are questioned under the Office of Management and Budget (OMB)




                                              B-2

                                                                               APPENDIX B


      Circular A-87 which states that “Salaries and Wages chargeable to more than
      one grant program or cost objective will be supported by appropriate time
      distribution records.”

���   Basis of Claimed Costs:

      The State of Illinois contends that OMB Circular A-87 does not require States to
      document time charges. As such, it determined direct labor costs on
      CN 600-94-13524 by applying estimated direct labor time percentages to the
      actual labor rates for the employees assigned to the contract.

���   Audit Evaluation:

      Because the State of Illinois did not document actual time spent by employees
      on CN 600-94-13524, we used the actual documented time charges on a second
      Social Security Administration (SSA) contract (CN 600-95-22673) for Referral
      and Monitoring Agencies (RMA) services to develop recommended labor hours.
      Subsequently, we applied actual labor rates to the recommended labor hours for
      individuals assigned to the contract.

We do not agree with the State of Illinois’ assertion that OMB Circular A-87 does not

require it to keep documentation to support actual time spent by the individuals

assigned to SSA’s contracts. It is our opinion that OMB Circular A-87 required the

State of Illinois to keep some form of documentation that supports the actual time

spent on the contracts. OMB Circular A-87 dated January 28, 1981, which is

applicable to the period of performance for CN 600-94-13524 through

September 1, 1995, states:


      “Salaries and wages of employees chargeable to more than one grant program
      or other cost objective will be supported by appropriate time distribution records.
      The method used should produce an equitable distribution of time and effort.”

OMB Circular A-87 was revised on May 4, 1995. The revised A-87, which covers
part of the period of performance of CN 600-94-13524, states:

         “Where employees work on multiple activities or cost objectives, a
         distribution of their salaries or wages will be supported by personnel activity
         or equivalent document which meets the standards in subsection (5)”, which
         states in part, that the personnel activity reports “. . . must reflect an after-the-
         fact distribution of the actual activity of each employee.” Subsection (5) also




                                            B-3

                                                                               APPENDIX B

            states that “Budget estimates or other distribution percentages determined
            before the services are performed do not qualify as support for charges to
            Federal awards.”

   ���   State of Illinois Comments:

         The State of Illinois did not agree with our questioning of direct labor costs for
         the project coordinator labor category. The State of Illinois contends that at all
         times during this contract they had a project coordinator who worked solely on
         this project. For the second RMA contract referred to by SSA, the State of
         Illinois provided signed certifications indicating the period of time that the project
         coordinator work full time as required by OMB Circular A-87 effective
         September 1, 1995. The State of Illinois contends that these certifications were
         not required under the previous Circular.

   ���   OIG Response:

         Based on our review of the additional documentation provided by the State of

         Illinois in support of claimed project coordinator direct labor costs, we agree with

         the State of Illinois and adjusted the questioned direct labor costs by

         $32,608. The remaining direct labor costs of $37,236 are questioned as

         indicated above, because of insufficient documentation of employee time per

         section B-10(b) of OMB Circular A-87.


2. State of Illinois - Fringe Benefits

   a. Summary of Conclusions:

         Because we question direct labor charges, we also question $9,033 of the
         related fringe benefits costs claimed by the State of Illinois.

   ���   Basis of Claimed Costs:

         The State of Illinois claimed fringe benefits costs that are equivalent to
         24.26 percent of direct labor costs.

   ���   Audit Evaluation:

         Direct labor is the allocation base to which fringe benefit rates are applied. To
         derive questioned fringe benefit costs, we applied the claimed fringe benefit
         rates of 24.26 percent for CN 600-94-13524 to our questioned direct labor costs.

                                                                                 APPENDIX B


                                               B-4

  ���   State of Illinois Comments:

        As indicated in the direct labor explanatory note, the State of Illinois disagreed
        with our questioning of direct labor costs associated with the project coordinator
        labor category. Similarly, they also disagreed with our questioning of the related
        fringe benefit costs.

  ���   OIG Response:

        Based on our review of the additional documentation provided by the State of
        Illinois, we have adjusted the questioned direct labor costs by $32,608.
        Similarly, we have reduced questioned fringe benefits costs $7,911 by applying
        the claimed fringe benefit rate of 24.26 percent to the accepted direct labor costs
        of $32,608. The remaining fringe benefit costs $9,033 are questioned because
        of insufficient documentation of employee time per section B-10(b) of
        OMB Circular A-87.

3. Subcontractor TASC - Office Space Costs

  a. Summary of Conclusions:

        We question a total $25,246 of claimed office space costs. Our review of
        office space costs disclosed unallowable interest costs in the amount of
        $23,219 which are being questioned under OMB Circular A-122.
        OMB Circular A-122 indicates that costs incurred for interest on borrowed capital
        or temporary use of endowment funds, however represented, are unallowable.
        We also question $2,027 for parking costs. The subcontractor does not
        consider these costs to be employee compensation or business travel.
        Therefore, we question these costs as unallowable costs because the costs
        represent personal expenses, and do not meet the criteria of employee
        compensation as described in OMB Circular A-122, which states “Compensation
        for personal services includes all compensation paid currently or accrued by the
        organization for services of employees rendered during the period of award.”

  b. Basis of Claimed Costs:

        Office space costs are comprised of accounts such as building lease, utilities,
        janitorial services, and a portion of the occupancy pool. TASC uses the
        occupancy pool to accumulate office space charges for its corporate office. The
        subcontractor allocates the costs contained in the occupancy pool to specific
        projects based on the percentage of the total employees assigned to a specific
        project. TASC also claimed personal parking expenses as office space costs.




                                            B-5

                                                                       APPENDIX B


c. Audit Evaluation:

   Our questioned office space cost of $25,246 is detailed below:

      Office Space:              Questioned Amount

      Occupancy Pool                 $ 23,219
      Parking                           2,027

      Total                           $25,246

   We question the interest included in the subcontractor’s occupancy pool
   amounts that are specifically excluded as an allowable charge under
   Attachment B item 19 of OMB Circular A-122.

   TASC also claimed $2,027 in daily commuting parking costs as office space.
   The parking costs are not allowable and reasonable for the following reasons.
   First, parking costs are not provided for in the terms of the lease agreement
   which is the basis for office space costs. Secondly, the parking costs are related
   to the employees’ daily commuting costs to their home-office. If the
   Subcontractor agreed to reimburse employees for home-office parking
   expenses, these items should have been considered as employee compensation
   and reported on the employees’ wage statements. TASC did not consider these
   costs employee compensation and did not include these costs on the
   employee’s wage statements. Finally, the parking costs were not incurred as a
   part of business related travel while the employee was in travel status.

d. State of Illinois and Subcontractor Comments:

   The State of Illinois and TASC did not concur with our questioning of $23,219 of
   office space interest costs claimed by TASC. Both the State of Illinois and TASC
   contend that these costs are in the original proposal and Best and Final Offer
   and as such, constitutes an advance understanding between SSA and the State
   of Illinois regarding the acceptability of interest costs. Additionally, TASC
   disagreed with our questioning of $2,027 of office space parking costs because
   it made reasonable efforts and arrangements to reduce and control travel costs
   through the purchase of monthly parking rather than on a daily fee basis.
   Finally, TASC believes that these costs were bona fide business expenses that
   are reasonable, ordinary and necessary under OMB Circular A-122.A.3.




                                       B-6

                                                                          APPENDIX B


   e. OIG Response:

      We disagree with the State of Illinois’ and TASC’s assertion that inclusion of the
      interest costs as in their original proposal and Best and Final Offer constituted
      an advance understanding between SSA and the State of Illinois. It was correct
      of TASC to provide the detailed components of its office space costs in its
      proposals. However, TASC should not have billed these costs to SSA because
      they are specifically excluded as an allowable charge under Attachment B
      item 19 of OMB Circular A-122. Additionally, we disagree with TASC’s assertion
      that the questioned $2,027 of office space parking costs should be considered
      travel costs. Based on our review, these costs were for daily commuting parking
      costs that TASC did not consider as compensation to the employees. Therefore,
      we question these costs as unallowable because the costs do not meet the
      criteria of compensation as described in OMB Circular A-122, Attachment B
      item 6, or the criteria for travel as described in OMB Circular A-122, Attachment
      B item 50.

4. Indirect Costs

   a. Summary of Conclusions:

      We question indirect costs of $51,627, which represents the difference between
      the subcontractor’s claimed indirect costs of $211,471 and our recommended
      indirect costs of $159,844.

   b. Basis of Claimed Costs:

      TASC derived the claimed indirect costs by applying an estimated indirect rate to
      the claimed direct costs. The details of TASC’s claimed indirect costs are
      detailed below by fiscal period:

  Table 3 - Indirect Costs Claimed by TASC
                            Claimed              Claimed              Claimed
     Fiscal Period           Direct              Indirect             Indirect
                             Costs                Rates                Costs
                              (A)                  (B)                  (A*B)

   1995                    $ 847,985              18.95%              $160,716
   1996                     213,844               23.73%               50,755
   Total Overall           $1,061,829             19.92%              $211,471

                                                                          APPENDIX B


                                          B-7

      Based on our discussions with TASC’s Director of Financial Reporting, the
      overall claimed indirect cost rate of 19.92 percent of direct costs was consistent
      with the indirect rate of 19.30 percent contained in its “Best and Final Offer” to
      the State of Illinois.

���   Audit Evaluation:

      As indicated above, TASC’s claimed indirect costs were based on the

      application of a provisional indirect rate of approximately 19.92 percent of direct

      costs. At the end of each FY, TASC should have, but did not, adjust the

      provisional indirect rate claimed to actual indirect rate. Our recommended

      indirect costs

      of $159,844 reflects the difference between TASC’s provisional rate of

      19.92 percent and its actual indirect rates for FYs 1995 and 1996.


      Our recommended indirect rate for FY 1995 of 15.30 percent is based on an

      indirect rate agreement between TASC and the Department of Health and

      Human Services. This indirect rate was based on actual costs incurred by TASC

      for FY 1995. The allocation base for this indirect rate is direct costs.


      Our recommended indirect rate for FY 1996 (15.90 percent) is based on an

      indirect rate agreement between TASC and the Department of Justice.

      Table 4 details our recommended indirect costs by FY.

      Table 4 - Recommended Indirect Costs for TASC
                           Recommended
 Recommended               Recommended

         Fiscal Period           Direct
   Indirect                  Indirect

                                 Costs
     Rates                     Costs

                                  (C)
       (D)                      (C*D)

       1995                 $ 	 828,566    15.30%                   $126,770
       1996                     208,017    15.90%                     33,074
       Total                $1,036,583     15.42%                   $159,844

      Table 5 - Questioned Indirect Costs claimed by TASC
                               Claimed            Recommended
      Questioned

         Fiscal Period         Indirect              Indirect
       Indirect

                                Costs                 Costs
          Costs

                                 (A*B)                (C*D)
       (A*B) - (C*D)

       1995                     $160,716             $126,770        $33,946
       1996                        50,755              33,074         17,681
       Total                     $211,471            $159,844        $51,627



                                           B-8

                                                                     APPENDIX B

In Tables 6 and 7 of this appendix, we provide our results by subcontractor FY,
because our recommended indirect rates for FYs 1995 and 1996 are different
than those claimed by the subcontractor.

Table 6 - FY 1995 Subcontractor Costs


     Cost            Claimed          Recommended        Questioned
   Element

 Direct Labor   $     508,522     $      508,522       $       0
 Fringe               120,653            120,653               0
 Benefits
 Temp                  16,895                16,895            0
 Services
 Travel                25,066                25,066            0
 Telephone             18,980                18,980            0
 Office                24,187                24,187            0
 Supplies
 Office Space          80,569                61,150        19,419
 Equip. Maint.          4,904                 4,904             0
 Equipment             26,465                26,465             0
 Other Costs           21,744                21,744             0
 Subtotal:
 Direct Costs   $     847,985     $      828,566       $ 19,419
 Indirect Costs       160,716            126,770         33,946

 Total
 Questioned
 Costs              $1,008,701          $955,336           $53,365




                                      B-9

                                                                               APPENDIX B


 Table 7 - FY 1996 Subcontractor Costs


      Cost Element          Claimed             Recommended       Questioned

  Direct Labor         $     139,878        $     139,878         $        0
  Fringe Benefits              28,038              28,038                  0
  Temp Services                     0                   0                  0
  Travel                        7,363               7,363                  0
  Telephone                     4,999               4,999                  0
  Office Supplies               4,107               4,107                  0
  Office Space                23,916               18,089              5,827
  Equip. Maint.                   992                 992                  0
  Equipment                     2,684               2,684                  0
  Other Costs                   1,867               1,867                  0
  Subtotal:
  Direct Costs         $    213,844         $     208,017         $    5,827
  Indirect Costs             50,755                33,074             17,681

  Total
  Questioned
  Costs                    $264,599               $241,091            $23,508




���   State of Illinois and Subcontractor Comments:

      The State of Illinois did not provide comments to our questioning of
      subcontractor indirect costs. TASC however, disagreed with all but $6,538 of
      the $51,627 questioned indirect costs. TASC contends that the final agreed to
      budget with the State of Illinois provided for an indirect rate of 19.3 percent, and
      this rate should be applied to the allowable direct costs and not the final
      approved indirect rates for fiscal years 1995 and 1996.

���   OIG Response:

      We disagree with TASC’s assertion. This contract is a cost-type contract and as
      such TASC is to receive payment for allocable indirect costs that are incurred.
      In order to determine the allocable incurred indirect costs for this contract, we
      applied TASC’s final approved indirect cost rates of 15.3 percent and
      15.9 percent for FYs ended June 30, 1995, and 1996 to our recommended direct
      costs. Tables 4 through 7 above details our recommended indirect costs.



                                          B-10

                        APPENDIX C



S S A C O M M E N TS

                                  APPENDIX D



    S TATE O F I L L I N O I S AN D

S U B C O N TR AC TO R C O M M E N TS

                                                                            APPENDIX E



 MAJOR CONTRIBUTORS TO THIS REPORT


Office of the Inspector General

Gale S. Stone, Director Financial Management Audits


Shirley E. Todd, Audit Manager


Stephen G. Ondrish, Senior Auditor


Suzanne Valett, Auditor



For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-9135. Refer to Common Identification Number
A-13-97-51024.




                                              ���

                                   APPENDIX F



S S A O R G AN I Z ATI O N AL C H AR T

